No. 19-1059

 

 

IN THE
Supreme Court of the United States

ANGELA HAMM AND Davip Hamm,
Petitioners,

Vv.

STATE OF TENNESSEE,
Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Tennessee

BRIEF OF THE RUTHERFORD INSTITUTE
AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,302 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 27, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
